September 27, 2007

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

SUBJECT:     Audit Report – Postal Vehicle Service Transportation Routes – Milwaukee
             Processing and Distribution Center (Report Number NL-AR-07-007)

Postal Service network transportation involves contracted transportation and
transportation using Postal Service vehicles and employees. Network transportation
using Postal Service vehicles and employees is called Postal Vehicle Service (PVS).

This report presents the results of our audit of PVS routes controlled by the Milwaukee
Processing and Distribution Center (P&DC) (Project Number 06XG019NL003). Our
objectives were to evaluate the effectiveness of PVS operations and identify
opportunities to save money. This report is one in a series of reports and responds to a
request from the Vice President, Network Operations, to audit PVS operations
nationwide.

The Milwaukee P&DC could improve PVS effectiveness and save more than $4 million
over 10 years if officials remove 11,283 excess hours from existing PVS schedules.
Officials could eliminate hours without negatively affecting service because schedules
contain: (1) unassigned time where drivers are not needed for a specific trip or related
activity, (2) duplicate trips, and (3) trips that were unproductive because they were not
full and their loads can be consolidated.

The Postal Service transportation network is dynamic and requirements constantly
change. Accordingly, throughout our audit we coordinated with local transportation
managers and proposed schedule realignments to them. As a result of our discussions,
the officials agreed to remove 11,283 excess hours from PVS schedules. We
recommended the Vice President, Great Lakes Area Operations, verify the elimination
of the 11,283 hours that managers agreed to remove from trip schedules. We will
report $4,015,221 in funds put to better use in our Semiannual Report to Congress.

Management agreed with our recommendation and stated that they had already begun
to implement changes based upon it. Management’s comments and our evaluation of
these comments are included in the report.
The U.S. Postal Service Office of Inspector General (OIG) considers the
recommendation significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective action is
completed. This recommendation should not be closed in the follow-up tracking system
until the OIG provides written confirmation the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Cynthia Mallonee
    David F. Martin
    Katherine Banks
    Lynn Forness
Postal Vehicle Service Transportation Routes – Milwaukee                    NL-AR-007-007
 Processing and Distribution Center


                                       INTRODUCTION
 Background                     U.S. Postal Service transportation includes both nationwide
                                “network” transportation between cities and major facilities
                                and “delivery” transportation between local post offices and
                                neighborhood delivery or pick-up points. Network
                                transportation using Postal Service vehicles and employees
                                is called Postal Vehicle Service (PVS).

                                PVS is capital and personnel intensive. PVS capital assets
                                include 1,900 cargo vans, 2,200 tractors, and 4,700 trailers.
                                These vehicles are serviced and repaired at 322 Postal
                                Service vehicle maintenance facilities (VMF) or annexes
                                and local commercial garages nationwide.




      PVS operations are
    normally conducted in
  urban and suburban areas
   within 50 miles of a base
            facility.

  This PVS tractor-trailer is
       assigned to the
   Milwaukee P&DC and is
       hauling mail on
  West Silver Spring Drive in
    Menomonee Falls, WI
     on March 20, 2007.

  Menomonee Falls is about
     20 miles from the
     Milwaukee P&DC.




                                PVS currently involves about 10,000 employees including
                                8,500 uniformed drivers, 620 administrative support
                                personnel, and 930 managers. The American Postal
                                Workers Union (APWU) represents PVS drivers and
                                support personnel.

                                PVS vehicles and personnel are typically assigned to Postal
                                Service network facilities such as bulk mail centers (BMC)
                                or processing and distribution centers (P&DC). These




                                                  1
Postal Vehicle Service Transportation Routes – Milwaukee                      NL-AR-007-007
 Processing and Distribution Center


                                 facilities are located in or near metropolitan areas. PVS
                                 operations are normally conducted in urban and suburban
                                 areas within 50 miles of a base facility. Operations can
                                 include:

                                    •   Transportation to and from major facilities or local
                                        post offices.

                                    •   Transportation to and from major commercial
                                        business mailers.

                                    •   “Yard operations” defined as the movement of
                                        trailers and equipment in or around a facility yard.

                                 PVS drivers log about 150 million miles every year. There
                                 are about 269 processing facilities in the Postal Service
                                 network. Only 150 conduct PVS operations. Because PVS
                                 operations are local, they are managed at the facility level
                                 under guidance and policy provided by district, area, and
                                 headquarters transportation officials.




  PVS tractor-trailer leaving
  the Milwaukee P&DC with
  mail for local post offices,
       October 6, 2006.




                                 The Vice President, Network Operations, requested that we
                                 audit PVS operations nationwide. Because individual
                                 facilities control PVS operations, our audit approach is also
                                 localized. This report focuses on PVS operations at the
                                 Milwaukee P&DC in the Postal Service Great Lakes Area.




                                                  2
Postal Vehicle Service Transportation Routes – Milwaukee                   NL-AR-007-007
 Processing and Distribution Center




 Objectives, Scope,             The objectives of our audit were to evaluate the
 and Methodology                effectiveness of PVS operations and identify opportunities
                                to save money.

                                Using Postal Service computer-generated data and other
                                records, we examined all 97 Milwaukee P&DC driver
                                schedules and identified 151,578 workhours associated
                                with those schedules. We also evaluated load volume. We
                                did not audit or comprehensively validate the data;
                                however, we noted several control weaknesses that
                                constrained our work. For example, some computer
                                records had missing data and inaccurate load volumes.
                                Even though data limitations and other restrictions
                                constrained our work, we were able to compensate by
                                applying alternate audit procedures, including source
                                document examination, observation, physical inspection,
                                and discussions with appropriate officials.

      PVS includes yard
     operations, network
   transportation between
    cities or major Postal
    Service facilities, and
     customer service for
      major commercial
      business mailers.
   The tractor in the picture
   is called a “spotter” and
       is used for “yard”
      operations to move
    trailers in and around a
   facility yard. The Postal
       Service owns 382
            spotters.
      Milwaukee P&DC,
       Milwaukee, WI,
       March 20, 2007.




                                During our work, we visited the Milwaukee P&DC, other
                                regional facilities, and local post offices. We reviewed
                                relevant Postal Service policies and procedures,
                                interviewed managers and employees, and observed and
                                photographed operations. We evaluated the type of mail
                                carried, considered on-time service standards, and visited
                                major commercial business mailers. We examined the cost




                                                  3
Postal Vehicle Service Transportation Routes – Milwaukee                        NL-AR-007-007
 Processing and Distribution Center


                                  of PVS operations, including the cost of PVS personnel and
                                  fuel. We identified PVS trip duplications and analyzed
                                  potential trip consolidations. We also discussed our
                                  observations and conclusions with senior management
                                  officials throughout our audit, considered their perspective,
                                  and included their comments where appropriate.




     PVS provides direct
    service to major Postal
      Service customers.

  Here a PVS tractor-trailer is
  making a mail pick-up at a
      major customer in
  Milwaukee, March 20, 2007.




                                  We conducted work associated with this performance audit
                                  report from October 2006 through September 2007 in
                                  accordance with generally accepted government auditing
                                  standards. Those standards require that we plan and
                                  perform audit work to obtain sufficient, appropriate evidence
                                  to provide a reasonable basis for our finding and
                                  conclusions based on our audit objectives. We believe the
                                  evidence obtained provides a reasonable basis for our
                                  finding and conclusions based on our audit objectives.

 Prior Audit Coverage             Our report titled Postal Vehicle Service Transportation
                                  Routes – Memphis Processing and Distribution Center
                                  (Report Number NL-AR-07-003, dated March 30, 2007)
                                  concluded the Memphis P&DC could improve PVS
                                  effectiveness and save more than $7.3 million over 10
                                  years if officials remove 18,874 excess hours from existing
                                  PVS schedules. The report also concluded officials could
                                  eliminate hours without negatively affecting service
                                  because schedules contain: (1) unassigned time where
                                  drivers were not needed for a specific trip or related activity,
                                  (2) duplicate trips, and (3) trips that were unproductive




                                                  4
Postal Vehicle Service Transportation Routes – Milwaukee                   NL-AR-007-007
 Processing and Distribution Center


                                because they were not full and their loads could be
                                consolidated. Officials agreed to remove 13,963 excess
                                hours from PVS schedules; however, they considered
                                4,911 hours we recommended for reduction as still needed
                                to meet on-time performance standards.

                               We recommended the Vice President, Southeast Area
                               Operations: (1) verify elimination of the 13,963 hours that
                               Postal Service managers agreed to remove from trip
                               schedules and (2) reassess the 4,911 hours which
                               managers felt were still necessary. Management agreed
                               with our recommendations.




                                                  5
Postal Vehicle Service Transportation Routes – Milwaukee                                 NL-AR-007-007
 Processing and Distribution Center


                                       AUDIT RESULTS
 Postal Vehicle                Our examination of annual PVS workhours identified
 Service Excess                11,283 unnecessary hours. The Milwaukee P&DC could
 Hours                         improve PVS effectiveness and save more than $4 million
                               over 10 years if officials remove the unnecessary hours from
                               existing PVS schedules. Officials could eliminate the hours
                               without negatively affecting service because schedules
                               contain:

                                   •   Unassigned time where drivers are not needed for a
                                       specific trip or related activity.

                                   •   Duplicate trips.

                                   •   Unproductive trips where the loads are not full or
                                       could be consolidated.

                               Most potential savings (92 percent) would be achieved
                               through personnel workhour reductions. However, the
                               Postal Service would also realize a reduction in fuel costs
                               and damage claims, as indicated below. For more detailed
                               information, see the appendix.

                                                       Allocation of Potential Savings

                                             Fuel – 7%
                                                                     Damage Claims – 1%


                                                                             Personnel – 92%




                                           Cost Category          Percentage      Potential Savings

                                             Personnel                  92                 $3,681,302
                                                Fuel                     7                     299,671
                                          Damage Claims                  1                      34,248
                                               Total                  100                  $4,015,221


                               The Postal Service transportation network is dynamic and
                               requirements constantly change. As we discussed in the
                               objectives, scope, and methodology section of our report,
                               Postal Service data has certain limitations. Accordingly,
                               throughout our audit we coordinated with local transportation



                                                  6
Postal Vehicle Service Transportation Routes – Milwaukee                     NL-AR-007-007
 Processing and Distribution Center


                                managers and proposed schedule realignments to them.
                                The managers then reviewed each proposal in conjunction
                                with their own assessment of operational requirements and
                                we discussed any differences. As a result of our
                                discussions, officials agreed to remove 11,283 excess hours
                                from PVS schedules.




      PVS capital assets
     include 1,900 cargo
   vans, 2,200 tractors, and
        4,700 trailers.

  Here a cargo van arrives at
   the Milwaukee P&DC on
       October 6, 2006.




 Implementation and             On September 6, 2007, we met with Great Lakes Area
 Audit Exit                     transportation officials. The officials agreed with our report
 Conference                     and recommendation and explained they had already begun
                                to implement our recommendation.

 Recommendation                 We recommend the Vice President, Great Lakes Area
                                Operations:

                                   1. Verify elimination of the 11,283 hours that
                                      management agreed to remove from trip schedules

 Management’s                   Management agreed with our finding and recommendation.
 Comments                       They stated they had already begun implementing changes
                                to the PVS schedules and they would phase in the
                                recommended changes over a period of time. Mangement
                                stipulated that the actual savings they achieved might vary
                                from the estimated savings identified in our audit report and
                                that they would provide an accounting of the actual savings




                                                  7
Postal Vehicle Service Transportation Routes – Milwaukee               NL-AR-007-007
 Processing and Distribution Center



                               when they completed the scheduling changes we
                               recommended. Management’s comments, in their entirety,
                               are included in Appendix B.

 Evaluation of                 Management’s comments are responsive to the finding and
 Management’s                  recommendation. Management’s actions, taken or planned,
 Comments                      should correct the issues identified in the finding.




                                                  8
           Postal Vehicle Service Transportation Routes – Milwaukee
            Processing and Distribution Center                                                        NL-AR-007-007


                                                                         APPENDIX-A

               MILWAUKEE PVS TRANSPORTATION ROUTE ELIMINATION COST SAVINGS WITH WHICH
                                      POSTAL SERVICE AGREES

PROJECT YEAR                      0            1           2            3              4      5             6           7           8          9         10
FISCAL YEAR                      2007         2008        2009         2010          2011    2012          2013        2014       2015       2016       2017

LABOR COST AVOIDANCE- LEVEL 7 TRACTOR TRAILER OPERATORS
FY 08 ACTION PLAN:
ELIMINATE 11,283 HOURS      $0     $401,029 $447,548 $457,842                    $468,372   $479,145     $490,165     $501,439   $512,972   $524,770   $536,840

FUEL COST AVOIDANCE
104,311 ANNUAL MILES              $0        $37,243     $37,615       $37,991    $38,371    $38,755      $39,142      $39,534    $39,929    $40,328    $40,732

TORT CLAIMS COST AVOIDANCE
104,311 ANNUAL MILES              $0         $4,256      $4,299        $4,342     $4,385     $4,429       $4,473       $4,518     $4,563     $4,609     $4,655


TOTAL COST AVOIDANCE              $0        $442,528   $489,462       $500,175   $511,128   $522,329     $533,781     $545,491   $557,464   $569,708   $582,227


PRESENT VALUE @ 5.0%              $0        $421,455   $443,957       $432,070   $420,507   $409,258     $398,315     $387,670   $377,314   $367,239   $357,437


NET PRESENT VALUE @
5.0%                          $4,015,221




                                                                                 9
Postal Vehicle Service Transportation Routes – Milwaukee
 Processing and Distribution Center                        NL-AR-007-007


                  APPENDIX B- MANAGEMENT’S COMMENTS




                                                  10
